<html>
<title> - LIBRARY OF CONGRESS MODERNIZATION OVERSIGHT</title>
<body><pre>[Senate Hearing 116-133]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-133

                          LIBRARY OF CONGRESS
                        MODERNIZATION OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov
                  
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-506                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the state of 
  Missouri.......................................................     1
Hon. Tom Udall, a U.S. Senator from the state of New Mexico......     2
Dr. Carla Hayden, PhD, Librarian of Congress, Library of Congress     4

                         Prepared Testimony of:

Dr. Carla Hayden, PhD, Librarian of Congress, Library of Congress    21

                  Materials Submitted for the Record:

Suggested opening remarks for Senator Cindy Hyde-Smith...........    29

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the state of 
  Missouri to Dr. Carla Hayden, PhD, Librarian of Congress, 
  Library of Congress............................................    30
Hon. Amy Klobuchar, a U.S. Senator from the state of Minnesota, 
  to Dr. Carla Hayden, PhD, Librarian of Congress, Library of 
  Congress.......................................................    40

 
                          LIBRARY OF CONGRESS
                        MODERNIZATION OVERSIGHT

                              ----------                              


                       THURSDAY, NOVEMBER 7, 2019

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
Room 301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Capito, Hyde-Smith, Udall, and 
Cortez Masto.
    Also Present: Senator Fischer

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Ms. Hyde-Smith, who also chairs the 
appropriating committee for the Library, and I think that is 
particularly helpful that you could be here with us for this 
today as well also as a member of this committee, so she is 
here as a member of the committee, but also on these topics, 
particularly valuable in the roles of appropriating.
    We have been having with the Library, with the Smithsonian, 
with the Architect of the Capitol, these kinds of oversight 
hearings to fulfill that responsibility and be sure we are 
giving the agencies the help they need. We are glad to be here, 
of course, with the Librarian, Dr. Carla Hayden, with Mr. Bud 
Barton, the Library's Chief Information Officer, and Karyn 
Temple, the Register of Copyrights. I thank all of you for 
being here today. I think we want to talk primarily, at least I 
want to talk primarily, about modernization. We had a chance 
with Dr. Hayden at the last meeting to talk about the physical 
plant ideas of how to make the Library even more of an 
experience for people who visit there.
    We want to talk about today more of how the modernization 
of the IT elements at the Library are coming together, and how 
all services are being benefited by that. The Library, of 
course, performs a lot of functions for us. Historically, one 
of those functions has been the Copyright Office. I think 
initially that was to be sure that the Library would be a clear 
recipient of that great treasure of the copyrighted documents 
that would become part of the Library's collection. But the 
Copyright Office has always been a part of the Library.
    Today we are taking a different--a deeper look again into 
the Copyright Office and we are glad the Register is here with 
us, but also IT and modernization generally. I think we are 
going to focus mostly on the Copyright Office and IT, and any 
discussions that you want to have about challenges you are 
having or successes you are having as you move in the direction 
of more up-to-date IT and more up-to-date protection. You know, 
cyber threats are real, and I think they are particularly real 
in some of the information that you are dealing with.
    Dr. Hayden and I got to know each other well in 2016 when 
we were able to work together and be sure that she became the 
first librarian in a long time to be the Librarian of Congress. 
We have been pleased to be able to work together since then. 
Prior to the arrival of really all three of you in these 
current jobs, the GAO was very critical of the Library, the 
Copyrights Office's information technology.
    The Government Accountability Office identified a lack of 
strategic planning, information and technology investment 
management, and weaknesses in information security, and 
privacy. They recommended that the Library hire a permanent 
chief information officer, which it did, and that chief 
information officer would professionalize and centralize the 
information technology needs at the Library, which hopefully we 
are going to find out today you are doing.
    As Librarian, Dr. Hayden, you are ultimately responsible 
for the management and success of the Library as a whole, which 
includes the Copyright Office, but of course we look to the 
Register of the Copyright Office to be responsible for what 
happens there every day and have the kind of working 
relationship with the two of you that are essential to make 
that happen. Mr. Barton, glad you are here. I look forward to 
hearing about how you are taking this job and making it work.
    Ms. Temple, we talked some last year in this committee. We 
had a proposal even to make your selection slightly different 
and maybe outside the normal selection process that had 
traditionally been by Librarian of Congress. That did not pass 
and so the Congress's view was this situation would continue to 
stay as it was. I think the staff of the Rules Committee has 
spent a lot of time with all three of you over recent months 
trying to be sure that this is working the way it needs to 
work. It is hard to talk about trade policy or lots of other 
policy without talking about the importance of protecting 
information and copyrights, patents, and other things. It is a 
very real topic.
    We had our last review in March, as I mentioned before, of 
the Library what the Library was doing in other areas. Glad the 
three of you are here today to talk about this, and I am 
particularly pleased that Senator Udall could carve out the 
time to be here as part of this as well. Senator Udall, I turn 
to you for any opening statements you might have.

  OPENING STATEMENT OF SENATOR UDALL, A U.S. SENATOR FROM THE 
                      STATE OF NEW MEXICO

    Senator Udall. Thank you so much, Chairman Blunt, and you 
are a good friend and we have worked on a lot of issues 
together. Thank you so much for holding this hearing. The 
Library of Congress is an important institution and I am 
pleased to see the committee taking an active role to make sure 
it is healthy and strong.
    I want to thank all the witnesses that are here today, Dr. 
Hayden, Ms. Temple, and Mr. Barton, and I also have worked with 
Dr. Hayden a lot over the course of her tenure over there. I 
have really enjoyed developing a deeper relationship. First, I 
want to say the Library is an American treasure of immeasurable 
value. Its 170 million items include the world's largest 
collection of legal materials, films, and sound recordings. Its 
landmark buildings see 2 million visitors every year, and there 
were 114 million visits to its websites last year.
    The Copyright Office is critical to music, film, and the 
publishing industry, worth over 1 trillion dollars every year. 
Copyrights are especially important in my home state of New 
Mexico where artists in the creative economy are a significant 
and growing part of our state's business activity. In addition 
to its public value, the Library is fundamentally essential to 
our work here in the Legislative branch. You know, some people 
may think members of Congress are ill-informed but imagine what 
this place would be like without the assets like the 
Congressional Research Service.
    Online resources like Congress.gov help keep us informed 
and up-to-date with non-partisan, factual information. Like so 
many Americans, we rely day in and day out on the information 
provided by the Library of Congress to make important 
decisions. So while this hearing may not be carried live on 
cable news, it is this committee's job to make sure the Library 
is well-run, up-to-date and prepared for the future. Future 
generations will thank us.
    Dr. Hayden, I know you and your team have been working 
diligently to modernize and grow the IT infrastructure of the 
Library of Congress and the Copyright Office. Digital 
technology is crucial to the Library's evolving operations. I 
am encouraged with the pace with which the Government 
Accountability Office recommendations have been implemented. I 
have worked on Federal IT reform on a bipartisan basis for many 
years and I know it is not easy. Big IT projects are tough 
enough in corporate enterprises, but Federal agencies face a 
much different budget process and unique organizational issues. 
Federal chief information officers have learned a lot of 
lessons and developed best practices in recent years.
    I urge the Library and Copyright Office to seek out those 
best practices and work together for success. I look forward to 
hearing about the progress to improve the Library's 
infrastructure and operations, progress in improving 
accessibility of the Library's unique collections and 
historical artifacts like Thomas Jefferson's draft of the 
Declaration of Independence and the contents of Abraham 
Lincoln's pockets the night he was assassinated.
    Tangible pieces of some of the most significant moments in 
our Nation's shared history can be both preserved and made 
accessible. Along those lines, I want to highlight one of the 
Library's ongoing initiatives, the Veterans History Project. 
Chartered by Congress in 2000, this ongoing effort collects and 
makes accessible personal accounts of American war veterans so 
that future generations can hear directly from veterans and 
better understand the realities of war.
    With Veterans Day approaching, I will be interested to hear 
an update on the progress of that project during our question-
and-answer time. Helping Native American tribes protect their 
historical and cultural resources is also a high priority for 
me.
    Dr. Hayden, we have spoken about this before and I know it 
is a priority for you too. I hope we can keep working together 
on tribal engagement under the Music Modernization Act as well 
as the Library's language and other resources for tribes. I 
look forward to our panel's discussion today and I will yield 
back to the chairman.
    Chairman Blunt. Thank you, Senator Udall. Dr. Hayden, your 
full testimony will be in the record. You can deal with it 
however you want. I am also going to ask that my remarks and 
Senator Udall's and any comments, introductory comments any 
member the panel would like to make would go into the record 
without objection.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Dr. Hayden, we are glad you are here. We 
are going to let you testify on behalf of everybody and then 
everybody will get their share of questions, I am sure of that. 
Dr. Hayden.

   OPENING STATEMENT OF DR. CARLA HAYDEN, PHD, LIBRARIAN OF 
                 CONGRESS, LIBRARY OF CONGRESS

    Ms. Hayden. Well, thank you, Mr. Chairman, Senator Udall, 
Senator Hyde-Smith. I welcome the opportunity to be here today 
to give you an update on the Library's modernization and 
especially the information technology and work with the 
Copyright Office. I want to thank the committee for its ongoing 
support of the Library in general and with the Library's IT 
modernization. Three years ago, in this very room during my 
confirmation hearing we discussed the many challenges and 
opportunities presented by the Library's technology and I am 
excited to be able to tell you today that we have significantly 
improved the Library's information technology.
    The Library is a different organization from what it was 
just a short time ago and over the last few years we have 
stabilized our core IT structure, we have streamlined and 
strengthened our IT governance, and we have centralized and 
professionalized our IT workforce. That hard work has allowed 
us to close and implement nearly 95 percent of the GAO 
recommendations made in 2015 and we will keep working until we 
close 100 percent by the end of this year. Modernizing the 
Copyright Office is a top agency priority and we are making 
progress in upgrading the systems to register and maintain up-
to-date records for creative works so that the systems are 
automated, integrated, and easier for the public to use.
    Thanks to the generous support of Congress, the Library is 
now 1 year into a 5-year effort to design and implement a new 
enterprise-wide copyright system. To keep progress moving 
forward, the Copyright Office has now hired a senior technical 
advisor in place to help manage and plan IT modernization and 
also to enhance the collaboration between the Copyright Office 
and the agency's technology staff. In fiscal year 2019, the 
Copyright Office and the Office of the Chief Information 
Officer jointly engaged in user-experience outreach to 
stakeholders and launched development efforts for key 
components of the new system.
    This fiscal year, the Library will release a limited pilot 
of the first fully digital copyright recordation system. We 
will also complete a prototype of a searchable records 
management system and begin the initial development for the 
next generation online registration system. I want you to know 
that I believe in my team leading this effort. Register Karyn 
Temple, Chief Information Officer Bud Barton, and I believe 
that together we will deliver a modernized copyright system. We 
are also completely overhauling the technology that powers 
every part of the Library.
    The Chief Information Officer, Mr. Barton, is working with 
the Congressional Research Service, CRS, to implement a new 
research and information system and it will make use of the 
latest technologies. The National Library Service for the Blind 
and Print Disabled is completely rethinking how it delivers 
content to people with reading difficulties. The Law Library 
has completely digitized the U.S. statutes at large, and in 
collaboration with the Government Publishing Office, we have 
digitized the Congressional Serial Set dating back to 1817.
    So by embracing user focused design and agile development, 
we brought out new products to millions of online users and we 
made enhancements to many of our services. Last, our digital 
strategy agency wide is leveraging technology to find 
innovative ways to reach more people.
    With these efforts we are moving ahead with a challenging 
but achievable task of transforming the Library into a more 
digitally enabled agency. There is still a lot of work to be 
done but we have made great progress. I thank you again for 
inviting me to update the committee with my colleagues and we 
welcome your questions.
    [The prepared statement of Dr. Hayden was submitted for the 
record.]
    Chairman Blunt. Great. We are glad you are here. We clearly 
are going to have plenty of time for us to ask multiple 
questions. I think we will try to stay in about 5 minute 
segments and just go back and forth. Senator Hyde-Smith is 
coming back in just a moment and obviously will be here for 
questions as well. Mr. Barton, would you share your progress? 
You started right--when, 2016 or was it 2015?
    Mr. Barton. September 2015, sir.
    Chairman Blunt. 2015 and that was in response to the idea 
that somebody needed to come in and be the chief information 
officer. Just in a couple of minutes sort of give me a sense of 
how far you have come from the day you walked in and 
particularly how far you have come since the Librarian took her 
job in 2016.
    Mr. Barton. Thank you for the question. It is a great 
opportunity for me to be able to reinforce the talent we have 
at the Library regarding IT and the professionalism displayed 
by the staff. As the GAO audit found, there was a lack of 
oversight and so they suggested that the Library hire a chief 
information officer. When I first came in, it was apparent to 
me that it wasn't the lack of talent or lack of capability. It 
was really a lack of vision, a lack of oversight on the IT 
organization.
    The Library had been pretty much working in a siloed 
fashion, as I am sure we will discuss a little bit more 
throughout the hearing. Centralization was something that would 
help this. In other words, making decisions about IT at the 
agency regarding strategic direction and then making sure that 
those decisions of the strategic direction didn't interfere 
with the individual service or business units needs to have 
specialized IT to perform their business mission.
    Whenever I first arrived, I testified that my goal was to 
make sure the findings of the GAO audit were addressed in a way 
that didn't just check a box. I wasn't here to just make sure 
that we closed the audit findings. I was here to make sure that 
the root cause of those findings was addressed and in such a 
way that we were not put back into the same situation in a 
matter of years. Thanks to the support of Congress from a 
budgetary perspective, we have been able to address 95 percent 
of those findings.
    I expect that we will close all of these findings by the 
end of this calendar year. We have submitted the evidence that 
is necessary to the GAO and are expecting back and forth 
conversations with them throughout the rest of this year on 
getting those closed. The progress we have made is significant 
and it covers every domain of IT.
    The discussions I have had with the GAO, the team that was 
here, it was the first time that they have actually made that 
broad of a recommendation. The number of recommendations were 
significant, over 100 recommendations, and in every domain of 
IT, from security to finance to operations, every domain that 
there exists.
    The biggest progress we have made is in security and I am 
very proud to say that at this point all of the major systems 
within the Library have now obtained what we call an authority 
to operate which means the security of those systems have been 
validated, tested, and compared to NIST standards, who is the 
body that we look to for establishing security standards.
    Chairman Blunt. On that topic, let me go to Ms. Temple 
before I run out of time here with my first questions. On the 
security topic, intellectual property is clearly one of the 
things that we are for good reason the most concerned about, 
one of the big targets of cyber-espionage and other things, do 
you feel good about where we are headed in terms of the 
security of the information entrusted to the Federal Government 
through you and your job?
    Ms. Temple. Yes, thank you for the question. Security is 
one of the most important aspects in our development of an IT 
system and I am very pleased that the Library has taken such a 
huge role in ensuring that the items that we receive in the 
Library are protected. Digital security--as we have kind of 
moved to digital technology, we receive a host of different 
types of works from feature films to important books to works 
that have not even been released to the public yet. Security of 
our system is a critical aspect of its development and so that 
is one of the things that we are focusing on as we develop with 
the Library.
    Chairman Blunt. You have worked in the office for some 
time, haven't you?
    Ms. Temple. Yes, I have.
    Chairman Blunt. What is the difference in the security 
either concerns or your sense of security now compared to 5 
years ago or whatever number you want to give me?
    Ms. Temple. Yes. I would say that the main differences is 
the focus that we have been placing on security, acknowledging 
and recognizing how critical it is to the management of our IT 
system and really making sure that at every level security is 
considered as we begin developing the new system. I think the 
focus and prioritization of security is one of the main 
differences from where we were years ago.
    Chairman Blunt. Yes. I would point out before we go to 
Senator Udall that while you said you have worked there for 
some time, you had this job really as the permanently 
designated person for a relatively short time. If we are back 
into 2014 or 2015, somebody else was the Register of Copyrights 
at that time. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Dr. Hayden, as part 
of the ongoing IT management and modernization plan, I am aware 
that the Library has implemented a new digital strategy by 
transitioning to a new tier 3 level data center. This 
investment is key to helping the Library deploy technology to 
expedite and expand digital access to the vast collection of 
books and media.
    Last time you testified before this committee you stated 
that the Library was in the process of migrating applications 
to the new data facility. Your testimony today provides an 
update that you are moving forward to fully transition 
operations by the end of the fiscal year 2020 to support the 
Library's digital needs. Could you expand upon your testimony 
and discuss the progress of this move, including progress on 
migrating data to cloud services?
    Ms. Hayden. As we mentioned before, we are looking at and 
making sure that we have a variety of storage capacities, and 
that includes the cloud, and also physical storage capacity as 
well because of the nature of the materials that we are 
storing. Some need to be onsite. Mr. Barton has been--and he 
knows that I have been very concerned and making sure that we 
are able to make that migration secure and also very effective 
without losing any data. If you wouldn't mind, Mr. Barton will 
give you the precise----
    Senator Udall. That would be great. Mr. Barton?
    Mr. Barton. Thank you, sir. The move out of the Madison 
Building of all of our, what we term the productions, the 
actual usable content, is supposed to be complete by the end of 
this fiscal year 2020. A lot of that content, especially the 
ones that are sensitive, needs to have security controls around 
it, will be maintained in this new data center that we have 
fitted out. That will be complete by the end of the fiscal year 
2020.
    We will also be migrating our non-sensitive, publicly 
releasable, the things that the general public reviews into the 
cloud in a lot of respects so that it is faster and less 
physically, from an equipment perspective that we have to worry 
about funding.
    Senator Udall. Ms. Temple can you update the committee on 
the progress of shifting copyright office data to this facility 
as well as to the cloud services, including the benefits you 
expect to see and the current challenges you face.
    Ms. Temple. Yes. I will defer a little bit to Mr. Barton in 
terms of the exact schedule, but I know that we are on track in 
terms of beginning to migrate our data over to the data center, 
some of our data. Some of our other data that will be housed in 
a cloud service as we are developing the new system as well. We 
are working closely with the OCIO in terms of the schedule and 
timeline for that process.
    Senator Udall. Dr. Hayden, I understand that expanding 
access to make the Library's unique collections available to 
all users is a central part of the Library's strategic plan. 
The Veterans History Project of the American Folklife Center is 
one collection of particular interest to me, and with Veterans 
Day just 4 days away, I am sure it is of interest to my 
colleagues.
    My office discovered that New Mexico had a low number of 
stories in the archives, especially considering the high 
percentage of active duty and veterans in our state. To change 
this, I set a goal for my staff to collect at least 50 stories 
from New Mexico veterans including at least one from every one 
of our 33 counties. Since July 1st, 2019, I am proud to say 
that my office has collected over 80 interviews.
    I conducted a number of interviews myself. I can tell you 
it was a really eye-opening experience. I am especially focused 
on enlisting the help of other community partners around my 
state to continue collecting interviews and other materials 
from Hispanic veterans, Pueblos, Apache tribes, and the Navajo 
Nation. Can you update the committee on the progress of this 
project and how it fits into the updated mission and vision of 
the Library?
    Ms. Hayden. Very pleased that you asked that question 
because I just returned from Rhode Island with Senator Reed and 
before that it was Senator Enzi in Wyoming collecting 
interviews and adding to the over 100,000 oral testimonies of 
veterans. The inclusion of the gold star families has been very 
important, and we are making sure that we work with 
congressional offices. We want to thank you for conducting the 
interviews.
    You are so correct about the fact that it can get emotional 
and there are a lot of veterans who feel they don't have a 
story to tell but we try to make sure they know. People who 
have lost their loved ones can also contribute to the Veterans 
History Project and talk about that. So over 100,000 already 
and we are working to make sure that we reach out to the native 
communities.
    We have added many oral histories and have a special focus 
in working with the National Museum of the American Indian on 
that project as well. It is very successful. It is something 
that we hope people will realize is so important in terms of 
stories to be told. In our new orientation center, we will have 
a special section for Veterans History Project and people that 
visit, those 2 million visitors, will all know they can record 
their stories, hopefully, very soon on their digital devices. 
They can do some of it now.
    Senator Udall. Thank you and just to let all members know 
that you do a really good job, I think, training us to do this. 
Thank you very much and we hope maybe you will visit New Mexico 
to take our recorded interviews back when we get ready to do 
that. Thank you so much.
    Chairman Blunt. Let me mention again, I think we will have 
time for at least a second round of questions but for your 
first questions, Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman, and thank you 
to our witnesses for being here today, I look forward to 
learning more about the modernization of Library of Congress 
and the Copyright Office because I know it is certainly vital 
to growth and expanding access to our Nation's wonderful 
collections. Your credibility, I think, is outstanding and it 
is just one of my favorite places here in Washington DC, I 
thank you for all your efforts.
    Dr. Hayden, the effort to centralize IT across the Library 
has included transferring both people and resources from your 
individual service units, including the Copyright Office, to 
the office of the chief information officer to execute 
technology activities--and this could be for whomever wants to 
answer it. Can you explain how OCIO tracks and utilizes the 
funds appropriated for copyright modernization on behalf of the 
Copyright Office?
    Ms. Hayden. I would like to start, and thank you for the 
question, about the--address the benefits of centralizing IT 
efforts and projects in the Library in general. That was one of 
the major challenges and major focus of the IT modernization 
effort to not have silos, Mr. Barton referred to that.
    With centralization we can track fiscal expenditures and 
resources, we can track equipment, we can professionalize 
personnel as well, and also additional security. When you have 
a number of units dealing with security that is so difficult. 
IT centralization has allowed us to track all of our 
expenditures and keep a better view of enterprise wise, what IT 
is. But I am very pleased to be able to report centralization 
has been helpful in so many ways.
    Mr. Barton. Thank you for the question. We have two prongs 
that I would like to address on that. One is, overall from an 
IT funding management perspective, we are in the middle of 
implementing something that is called the technology business 
model. This is something that the Executive branch has been 
working on for several years, industry has been working on for 
several years. While we may not be as far along as some of the 
agencies that started this ahead of us, we have made great 
strides and we expect that by the end of this fiscal year we 
will have our tool in place that gets us down to a level of 
fidelity on where we are spending IT funding, that we can make 
much more informed decisions about what is working and what 
isn't working.
    With regards to the Copyright Office, we have a regularly 
scheduled, every other week meeting with the Chief Financial 
Officer at the Library, Chief Financial Officer of the 
Copyright Office, and my IT funding manager and we go over in 
detail what the funding is being used for the copyright 
modernization effort, where it is being used and spent, 
contracts, personnel, and all of the resources that are 
involved in the IT modernization for the Copyright Office.
    Senator Hyde-Smith. Thank you very much.
    Chairman Blunt. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Welcome. It is great to 
see all of you, Dr. Hayden, Mr. Barton, Ms. Temple. I am a big 
fan of the Library of Congress and what you all do and your 
staff. Please know that. I am just sitting here talking to my 
wonderful colleague from New Mexico about the Veterans History 
Project. Count me in. If my staff are listening, we will be 
participating with you in the great State of Nevada.
    We have some incredible veterans who I have met and have 
heard their stories. Believe it or not, there is a population 
of 140,000 Filipinos, many who are veterans, and I would love 
to capture their stories, if they are not captured, and so many 
more in the state. So we will be following up with you. Let me 
follow-up on the enterprise copyright system. That seems to be 
the topic this morning. I know that part of the goals for this 
updated system is to improve public record searches and 
simplify the process for registering copyrights. I think you 
mentioned, Dr. Hayden, in your testimony that portions of the 
program will be piloted in the spring of 2020. Is that right?
    Ms. Hayden. Yes.
    Senator Cortez Masto. Okay. How do you--I guess the only 
question I have is how do you measure the success of the pilot 
programs?
    Ms. Hayden. I have my colleagues here, but we have a 
Copyright Modernization Office. We also have regular tracking 
of progress, and we are about to have a critical path 
opportunity that we can overlay everything that is happening 
with copyright modernization. But I will defer to Ms. Temple to 
more--
    Senator Cortez Masto. Thank you. Also include whether the 
public will be able to provide feedback as well.
    Ms. Temple. Yes. Just to piggyback on your last statement, 
we think it is critical to have the public provide input and 
feedback as we develop our system. For the recordation system 
which will be piloted in the spring of 2020, we are going from 
a completely paper-based system to a digital system for the 
first time so that is something very exciting for us. We have 
established a group of companies and individuals who will 
participate in the pilot, but as we continue to, you know, 
irate on the pilot and add functionality, we will be adding in 
additional individuals to participate, and during that process 
we will be getting feedback from them as to how the system 
works.
    Is it as easy as we thought it would be? Are there changes 
that we may need to make? I think that is one of the benefits 
of the agile methodology in terms of the system development, 
that we will be able to quickly take that feedback and add onto 
the existing system and change it as the users provide 
feedback.
    Senator Cortez Masto. Okay. Thank you, I appreciate that. 
Mr. Barton, you mentioned before that one of the Library's 
biggest challenges is storage, and I know when I was over there 
visiting with some of your staff, we talked a little bit about 
that. Can you talk about what the Library is doing to address 
the current storage problem?
    Mr. Barton. We are taking several prongs of approach to the 
storage issue. One, as Dr. Hayden mentioned in her opening 
remarks, stabilization was the first phase. The second phase of 
the IT modernization was what we called optimization and then 
modernization. They weren't necessarily sequential. We are 
doing a lot of those activities in parallel. The optimization 
part of storage is making sure that where we need storage, we 
are using the right type of storage.
    For example, if we are presenting information to the 
public, we want that information to appear on their computer 
screens instantly. That is going to have a different type of 
storage than preservation storage where we want to make sure 
something is here for posterity, in 100 years it is still 
available. That is not necessarily something that needs to be 
retrieved rapidly in a matter of milliseconds.
    So that would be a less expensive form of storage. That is 
one of the avenues that we are approaching, is making sure we 
are using the right type of storage for the type that is 
needed. The other part is looking at our options from the 
priorities of ownership. Cloud-based storage, if we would 
consider something that is less expensive for us to maintain 
because we are not in the position of having to replace the 
hardware. Making sure that we are taking advantage of all the 
options from a storage based perspective is a high priority for 
us to make sure that it is being done correctly and 
efficiently.
    Senator Cortez Masto. Thank you and thank you all for the 
testimony today. Appreciate you being here and all the good 
work that you do. Thank you, Mr. Chair.
    Chairman Blunt. Mr. Barton, earlier when you mentioned 
moving from the Madison Building to the new storage facility, 
how much of that would be physically stored and how much of it 
is being digitized, moved to the cloud? However, you are doing 
that differently than was the case of few years ago?
    Mr. Barton. That is a great question, sir. We are 
attempting to get all of our analog written materials digitized 
in a way that they are accessible by the citizens of the United 
States and worldwide. That is right now. I would have to get 
back with you on the exact number of what is digitized and what 
isn't. It is a constantly growing requirement. When I first 
arrived, we were dealing with--we counted our content as 160 
million items. As we testified today, it was 170 million items.
    So 10 million items in less than 4 years on an analog 
basis. That is something that is going to be a challenge for 
us, and we are implementing a process where we look at what is 
the best way to make this happen. I know the Copyright Office 
has a really good story on storage that I don't feel 
qualified----
    Chairman Blunt. Well, Ms. Temple, let us hear that story.
    Ms. Temple. I think what Mr. Barton is alluding to is to 
our efforts to digitize our public records. One of the things 
that we were really excited to be able to release to the public 
last year or earlier this year, since we are still in 2019, was 
in March 2019, we did our final release of our virtual card 
catalog. On that we were able to give access for the first time 
to over 41 million images that were previously physical images 
where you had to come into the Copyright Office to be able to 
get access to those documents. Those were completely digitized 
and put into a digital database for people to be able to access 
from wherever they wanted to.
    That is something that we are really pleased about. We are 
continuing to digitize the remainder of our Copyright Office 
records and that is one of the work streams that we do have for 
modernization this year. We are going to hopefully be able to 
pilot a public record system, a limited pilot public record 
system where will be able to add in the virtual card catalog 
records that are already digitized as well as the records that 
we are digitizing now, and then work on how we might be able to 
make all of those records in some way available to the public.
    Chairman Blunt. On the digitization project, do you do that 
with outside contractors?
    Ms. Temple. Yes, yes, we have contracted. We have been 
working actually with FEDLINK who has been assisting us on that 
and with outside contractors to digitize the additional records 
beyond the card catalog. We have about 26,000 record books that 
we are hoping to digitize and make the information from those 
records, the data like copyright registration number, author, 
or title available in a database so that people who want to 
come to our office, digitally or online, will be able to very 
easily search the copyright status of individual copyrighted 
works.
    Chairman Blunt. I know like in the Department of 
Agriculture, I used to be the top Republican on that 
appropriating committee, they have a number of CIOs and there 
are various entities around the country, but any big project 
has to be cleared by the central USDA CIO. Do you, on an 
outside contract on information, would that go through a 
clearance process at the Library as well?
    Ms. Hayden. Yes. I can answer that. Also FEDLINK, that Ms. 
Temple referred to is managed by the Library and we manage that 
for contracting and services for other Federal agencies and 
libraries. Anything that is part of the centralization of the 
standards and the operation of any IT has a review.
    Chairman Blunt. Ms. Temple, as one of the agency leaders in 
the Library, does that process work quickly enough in your 
view? It certainly gives you a safeguard you wouldn't have 
otherwise. Does it?
    Ms. Temple. Yes, obviously all people within the Government 
would love to be able to work even more quickly than they do, 
but yes, I think we have an efficient process where what we do 
is work with IT OCIOs if it is an IT related project to develop 
the contract and send through to the centralized contract 
office within the Library.
    So for the digitization side, which is actually more of a 
business side project, that also does--the resulting contract 
will go through the Contracting Office within the Library and 
we will work with them whether it is through FEDLINK or through 
an outside vendor to develop that contract and get solicitation 
out and approved, and then work with the contracting officer 
which will be in the Library's Contracting Office to make sure 
that that contract is operating smoothly.
    Chairman Blunt. I think initially the reason the Copyright 
Office was in the Library was as much as anything else to 
ensure the collection. One question I would have with all of 
this material out there, do you still have those kind of 
relationship, Dr. Hayden, that you need for best edition, for 
deposit requirements, so that you are getting for your deposit 
what you think is what the Library really needs to have in that 
eventually, now apparently, quickly digitized form as well as 
the other forms?
    Ms. Hayden. The deposit requirement has allowed the Library 
of Congress to have one of the most comprehensive collections 
in the world and it is now the largest collection in the world. 
It is such a benefit to be able to have the opportunity to 
select from the deposit requirements and so we are very 
pleased. I just want to also take an opportunity to commend the 
Virtual Card Catalog Project even though it is records and it 
is just to think of 41 million cards in catalog drawers. That 
was a major undertaking. Visualize a card catalog set with 41 
million cards.
    Chairman Blunt. How often is the old card catalog cabinet 
used now?
    Ms. Temple. People still actually do come to the office to 
use it, but we are actually looking to, now that people are 
aware of the fact that they can access those card catalogs 
online, we are actually going to take advantage potentially of 
the space and save some space. Probably decommission the 
physical card catalogs and actually direct more people to go 
online as it is becoming more enhanced.
    Ms. Hayden. People have quite a bit of affection for card 
catalogs. We even have published a book about card catalogs 
with a different ending.
    Chairman Blunt. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman. When you 
last testified in March, Dr. Hayden, you and I discussed tribal 
concerns with the proposed rule for the Music Modernization Act 
that deals with the pre-1972 recordings. Since then, the 
Copyright Office has issued its final rule. The rule did not 
include a public domain exemption for pre-1972 tribal, cultural 
recordings because according to the Copyright Office it would 
exceed the Office's regulatory authority.
    This question is for, I think, both you and Ms. Temple, are 
you working with tribes to continue addressing this issue, and 
if so, what are you doing and what can Congress do to assist 
your office with those efforts?
    Ms. Hayden. We have several initiatives with making sure 
that we preserve and make available the cultural heritage of 
native cultures. We have the Federal Cylinder Project and that 
is where we are preserving actual, very fragile historic 
records dating back to the late 19th century. Then the 
Ancestral Voices Digital Collection and our Folklife Center is 
making sure that we provide access to the recorded sounds 
digitally and songs. We are very active in making sure that we 
are capturing and using technology to its great extent for 
that.
    Senator Udall. Great. Ms. Temple, will you give me your 
commitment that the Copyright Office will work with me and my 
Indian Affairs subcommittee staff on this issue? As Vice 
Chairman of Senate Committee on Indian Affairs, respecting 
tribal sovereignty is a priority for me so I look forward to 
working with you to resolve this issue. Would you give me your 
commitment?
    Ms. Temple. Yes, of course. During the process for the 
Music Modernization Act implementation of the regulations we 
did seek outside comments about issues, including issues with 
respect to tribal musical recordings. We have some specific 
provisions in our regulations that do address tribal musical 
works and are committed to working with you and the various 
tribes on ways that we can continue that partnership in the 
future.
    Senator Udall. You know, and one of the issues that they 
are raising, which I think is a critical issue, I think you 
know about this, but I think it is important for everybody to 
know about it. In the first half of the 20th century, 
anthropologists and sociologists took a substantial number of 
tribal ceremony and religious event recordings without the 
consent of the tribes. Many museums and universities now hold 
these collections without tribal knowledge.
    The MMA would require these institutions to make these 
recordings public, resulting in potential release of culturally 
sensitive information. That is the issue we are trying to focus 
in on and we want to work very closely with you on that. Thank 
you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator Udall. Mr. Barton, I 
think the Librarian mentioned 95 percent of the 2015 GAO 
recommendations have been fulfilled. What were the business 
units that the 5 percent are largely congregated in?
    Mr. Barton. The 5 percent of the remaining comes out to be 
six recommendations. Two of them are nonpublic so they revolve 
around security and that would be a Library wide concern, not 
just a specific service unit. We have the IT funding. There is 
a recommendation on financing and that is an OCIO 
responsibility so that applies directly to the OCIO.
    Chairman Blunt. Let us be sure the three of us or anybody 
watching that we understand exactly what that means. How would 
that be followed up then if it relates to the OCIO? Are they 
not giving you the--are you not getting the information you 
need or the funding you need, or what do you mean, you mean 
that is up to somebody else?
    Mr. Barton. We are getting the funding that we need to 
close out these particular findings. We are in constant 
communication with the GAO and providing evidence on closing 
out the remaining six findings. I do not have any concerns 
about being able to meet that by the end of this fiscal year. I 
am confident that we will be closing----
    Chairman Blunt. Alright, let me let you finish the answer 
then. So what are the other beyond that? Do you have some 
specific units where there are more challenges than others in 
finishing up?
    Mr. Barton. Yes. We actually do not have any remaining 
challenges to close out. In fact it was part of the GAO audit. 
There were two findings that specifically related to the 
Copyright Office. Both of those have been closed as implemented 
and we are very happy to be able to report that. All of the 
remaining six are strictly within the purview of the OCIO and 
we are confident that those will be closed by the end of this 
calendar year.
    Chairman Blunt. Ms. Temple, do you have on that topic--is 
there anything that you are trying to get done in this calendar 
year that is a concern for you?
    Ms. Temple. No. As Mr. Barton alluded to, we are very 
pleased we were able to close out those last remaining two GAO 
recommendations. We worked closely with OCIO to do that. We are 
prepared to move forward aggressively on our modernization 
efforts.
    Chairman Blunt. The timeline that the two chief financial 
officers and the CIO and your folks that work with them are 
working on is one that you think is reasonable?
    Ms. Temple. Yes. Obviously, we do understand that our users 
and stakeholders would love to have a new system yesterday and 
so we do take that very seriously, but we are working very 
aggressively. As was alluded to, fiscal year 2019 was the first 
year we actually got specific funding for the enterprise 
copyright system.
    We have now had that 1 year concluded and now in fiscal 
year 2020, we are going to have three separate work streams 
working on registration development, public records 
development, and recordation system development all at the same 
time. We think that this is now going to be something that the 
public will really be able to see the progress more completely 
now that we are in the second year of our funding phase.
    Chairman Blunt. Okay. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. It is always great 
to see you Dr. Hayden and thank you for your good work. I think 
you are doing an excellent job at the Library of Congress and 
in modernizing its operations just in the brief time I have 
been in here. But I wanted to talk about when I was chair of 
the appropriations subcommittee of the Legislative branch for 2 
years, I went back and looked at some of the legislative 
language that we had in our Appropriation subcommittee report.
    Our report in fiscal year 2016 recounted GAO's finding 
that, ``a lack of central leadership and oversight at the 
Library resulted in duplicative overlapping and inefficient IT 
policies and investments.'' Again in 2017, a report noted that 
the IG's finding that the Library failed to have, ``an 
organization-wide independent strategy for digital collection 
activities and that the goal of addressing a digital collection 
strategy was not including the Library wide strategic plan or 
its information technology strategic plan.'' Indeed, at that 
time, the Library was seeking funding for a digital collection 
management unit even though there was no comprehensive study.
    I am not bringing these up to rehash problems of the past 
but to highlight how much progress has been made. Dr. Hayden, 
you have already implemented 95 percent and Mr. Barton just 
talked about the remaining 5 percent of the tasks. As we talk 
about this, Dr. Hayden, could you just kind of flesh out a 
little bit how this is impacting the public--how the public is 
benefiting now and will in the future from having access to the 
digital access to the Library's collections? How is this 
impacting Americans just in general?
    Ms. Hayden. In general, what American and people worldwide 
will be able to do is have more access to the Library's 
collections digitally, they will be able to download 
photographs that are copyright free, and they will be able to 
have visual exhibits on their mobile devices, they will be able 
to record their veterans history projects and send them to the 
Library, they will be able to also use Congress.gov and get up-
to-date, ready Government information that is available to all 
citizens.
    The variety of opportunities that information technology 
provides in terms of opening up what we call the treasure chest 
of the Library of Congress are, you know, just amazing when you 
think about seeing Rosa Parks live exhibit that is going to 
open in December, her handwritten notes, and seeing Thomas 
Jefferson's draft of the Declaration of Independence. We have 
invited the public to help us transcribe letters to Abraham 
Lincoln by the People Project so they can actually be part of 
helping history come alive.
    Senator Capito. Yes, I was going to ask you about the 
People Project.
    Ms. Hayden. It has been wonderful. We launched it with the 
anniversary of the Gettysburg Address, and we had high 
schoolers come in. We found that the aspect of reading cursive 
writing gave us opportunities for intergenerational programs 
where you have more mature people reading cursive and the young 
people doing the computers. We were able to, of 27,000 letters 
to Abraham Lincoln that had not been reviewed in decades or 
seen by people----
    Senator Capito. Were they written to him as President?
    Ms. Hayden. They were written to Abraham Lincoln. The hook 
for young people was the fact that they were making something 
by transcribing. They were taking something that hadn't been 
read since 1864, available for everyone to see. All those 
27,000 all were transcribed.
    Senator Capito. So really without the digital access, a 
project like that----
    Ms. Hayden. It could not have happened. The fact that we 
were able to and Congress has supported the IT modernization of 
the Library has had so many benefits in terms of making the 
Library more useful, inspirational for so many people. Then 
with a copyright modernization, you will have people who can 
search historic records. They can file on a Register online. 
People are buying cards online and now they will be able to 
register quickly, search the records, do different things with 
the entire copyright system. It will be an integrated system. 
So technology--and we really appreciate the support that 
Congress has given us. Thank you for that.
    Senator Capito. Thank you. Thank you, Mr. Chairman.
    Chairman Blunt. Senator Udall.
    Senator Udall. I just have--first of all, just thank you 
all very much. Just one final statement. Senator Klobuchar, I 
know who is the ranking on this committee, is very interested 
in all of these issues. I know she has been working with you. I 
believe she is working on a piece of legislation called the 
Case Act which would help to reduce the cost and barriers to 
making a small copyright claim less expensive and you all are 
aware of that. But she and her staff are going to be working 
with you and I am sure she is going to be putting in questions 
for the record. Thank you very much, Mr. Chairman.
    Chairman Blunt. Thank you, Senator. Let's talk about the 
Case Act a little bit. I was in Missouri over the weekend and 
had a photographer in an event that I was speaking at say I 
hope you are looking at the Case Act because I can't afford to 
defend my work anywhere else. Obviously, you know, we want to 
create that kind of opportunity, but what are the challenges to 
that kind of opportunity, including the kind of additional 
staff you might have to have or the other challenges you would 
see.
    I think Senator Kennedy is also one of the members of the 
Senate along with Senator Klobuchar that is interested in the 
Case Act. Why don't you tell me how you think that would impact 
what you do and if it is a responsibility that you can handle? 
If you could handle it, what would it take in addition to what 
you have now to be able to handle it?
    Ms. Temple. Yes, thank you. This is a long standing issue 
that the Copyright Office has analyzed and reviewed. We 
actually did a full study of a proposed small claims tribunal 
back in 2013 and issued a report to Congress actually 
recommending that Congress adopt legislation that would create 
a small claims tribunal within the Copyright Office.
    So we feel confident that if the Case Act were to pass and 
be signed into legislation, that is something that we would be 
able to readily implement. We have our previous experience, for 
example, with the Music Modernization Act which was a historic 
piece of legislation that really did require the Copyright 
Office to work closely with OCIO to develop a number of online 
filing mechanisms as well as several databases in a series of 
regulations all within a statutory deadline of 6 months.
    We were able to quickly, with the help of OCIO as well as 
our stellar team in the Office of General Counsel at the 
Copyright Office to get all of that done ahead of time. We were 
able to post a new website overnight at the time that the MMA 
was actually enacted. Given our history and experience with 
that recent legislation, we are confident that we would be able 
to meet whatever resource requirements would be needed to 
implement the Case Act if it was passed.
    Chairman Blunt. Do you see that likely to be largely a CIO 
assisted kind of operation where someone contacts you without 
coming to the office, they explain what their problem is 
without having an attorney or a visit or anything else? How 
would that work and how many more people do you think you need 
to have to manage that?
    Ms. Temple. For implementation of the regulations, we do 
not anticipate that we necessarily need to have any additional 
staff. We were able to do the regulation side of the MMA 
without additional legal staff. With the Case Act, you know, 
one of the main points of that provision is to streamline the 
process, so take advantage of digital technology, for example, 
video conferencing so that people would not need to come into 
the office if necessary for motions and hearings.
    So we would work with OCIO on that to develop any necessary 
digital resources that would be needed to be able to have that 
access for the Case Act. The provision of the bill does require 
that we have three potential judges for the Case Act for the 
small claims tribunal as well as up to two additional attorneys 
and so we would just work with Congress to make sure that we 
have the resources to hire that staff. But we feel that that 
should be a relatively easy resource because there are many 
attorneys, I am sure who would be willing to participate in 
that tribunal process if that was something that was enacted 
into legislation.
    Chairman Blunt. Physically, do have space for those people?
    Ms. Temple. Yes. We currently have----
    Chairman Blunt. Put them where the card catalog used to be?
    [Laughter.]
    Ms. Temple. We kind of have identified potential areas for 
that. But we already have a copyright royalty board that hears 
issues related to our administration of the statutory licenses 
under the Copyright Act. There is a hearing room. We did work 
with the CBO to support the Case Act and to determine how much 
it would cost if we actually got an additional hearing room or 
did not, and we could do either one. It just would depend on 
whether Congress would like us to have an additional hearing 
room beyond the one that we already have for the copyright 
royalty board.
    Chairman Blunt. I think in your other comments earlier you 
mentioned that you had designated or brought in an IT advisor 
to work directly with the CIO. Why did you do that and what do 
you think the benefit of that will be?
    Ms. Temple. The main reason we did that was to strengthen 
our communication in collaboration with OCIO. I think lawyers 
and the business side sometimes speak slightly different 
languages than the technologists and so we wanted to make sure, 
as we are really working on a number additional work streams 
for fiscal year 2020, that we had strengthened communication 
and collaboration to really effectively communicate with one 
another, make sure that the business needs that we have from 
the Copyright Office are easily translated to OCIO as they 
start doing all of these various development activities.
    We think that that will be really helpful as we have all of 
the number of work streams that we are working on. We were very 
pleased that OCIO was willing to give us one of their top 
persons. This was an individual that actually came from OCIO. I 
think that that will really help to strengthen our 
communication and collaboration moving forward.
    Chairman Blunt. Good. I think internally too, taking full 
advantage of all the resources that the whole Library structure 
has is a good thing. I believe there was an effort made from 
2014 or '15 to '17 for copyright modernization, largely 
independent of the internal structure that just did not work. 
About $11 million spent and nothing was produced as a result of 
that. I think that was an example of what happens when you 
don't have the system you have now, of course, that system was 
just being put into place.
    So I would also point out, you know, the structure here has 
grown up over time, intellectual property needs have grown up 
overtime, the desire for accessibility, and as you are doing 
now, more immediate accessibility to everything in this vast 
collection, including the copyright space has changed. The 
overall structure has not changed. In fact as I mentioned 
earlier, we last year we made an effort to--at least thinking 
that the copyright community had greater interest in maybe a 
different kind of procedure to choose the Register, but it 
turned out that that was not an effort that was successful 
between the House and Senate. I don't think it would be again.
    So that makes it critically important that we make the 
current structure work. You got, between all three of you, vast 
resources that are probably always a little short of what you 
would like to do but are substantial, and how you make those 
resources work. I would also point out that this committee is 
the oversight committee for the Library, for Copyright Office--
not the committee that will write copyright law, and that is 
often the case. You have a different kind of reporting 
responsibility for oversight and how you manage a lot of that 
responsibility.
    We just had two of the previous chairman of the Legislative 
branch Appropriations Committee who are on this committee, and 
from the point of view of money available and how that money 
spent, have an incredible ability to not only ask the right 
questions but help you help us understand the answers. The 
responsiveness to this committee is really important. I don't 
think we have had problems with that.
    Dr. Hayden, since you became the Librarian, you have been 
responding to questions from our staff and our staff have spent 
a lot of time particular on this modernization effort system-
wide over the last couple of years and we intend to continue to 
do that. But, grateful to have your time. Dr. Hayden, do you 
have anything you want to say that we might have covered today 
and didn't that we need to be thinking about?
    Ms. Hayden. Well, I just want to reiterate the gratitude 
that we have for the support and we want to encourage your 
continued input and feedback. We want to keep the discussions 
going and it is very helpful for us as we move along.
    Chairman Blunt. Thank you. Anybody else?
    [No response.]
    Chairman Blunt. Well, thank you all for taking the time 
with us today, sharing your views. The record will be open for 
1 week from today for others on the committee to ask questions. 
We ask you respond to those quickly.
    [The information referred to was submitted for the record.]
    Chairman Blunt. The committee is adjourned.
    [Whereupon, at 11:09 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
